                       ort




   CONTRACT TERMINATIONS AT DEFENSE SUPPLY CENTER
    COLUMBUS AND DEFENSE SUPPLY CENTER RICHMOND



Report Number 98-172                            July 2, 1998




              Office of the Inspector General
                  Department of Defense
Additional    Information   and Copies

To obtain additional copies of this audit report, contact the Secondary Reports
Distribution Unit of the Analysis, Planning, and Technical Support Directorate at (703)
604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector General,
DOD, Home Page at: www.dodig.osd.mil.


I
Suggestions   for Future Audits

To suggest ideas for or to request future audits, contact the Planning and Coordination
Branch of the Analysis, Planning, and Technical Support Directorate at (703) 604-8908
(DSN 664-8908) or FAX (703) 604-8932. Ideas and requests can also be mailed to:

                       OAIG-AUD (ATTN: APTS Audit Suggestions)
                       Inspector General, Department of Defense
                       400 Army Navy Drive (Room 801)
                       Arlington, Virginia 22202-2884

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling
(800) 424-9098; by sending an electronic message to Hotline @DODIG.OSD.MIL; or
by writing to the Defense Hotline_, The Pentagon, Washington, D.C. 20301-1900. The
identity of each writer and caller IS fully protected.




Acronyms

CIT                    Consumable Item Transfer
DLA                    Defense Logistics Agency
DSCC                   Defense Supply Center Columbus
DSCR                   Defense Supply Center Richmond
GAO                    General Accounting Office
ICP                    Inventory Control Point
NSN                    National Stock Number
SAMMS                  Standard Automated Materiel Management System
SPR                    Special Program Requirement
                             INSPECTOR GENERAL
                            DEPARTMENT        OF DEFENSE
                                 4OOARhlYNAVYDRIVE
                            ARLINGTON,   VIRGINIA   222024384



                                                                             July 2, 1998

MEMORANDUM FOR ASSISTANT SECRETARY OF THE NAVY (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               DIRECTOR, DEFENSE LOGISTICS AGENCY

SUBJECT: Audit Report on Contract Terminations at Defense Supply Center
         Columbus and Defense Supply Center Richmond (Report No. 98-172)


         We are providing this report for your review and comment. This report is the
second in a series of reports regarding the Defense Logistics Agency process of
identifying, reviewing, and terminating excess procurements at its supply centers. We
considered management comments on a draft of this report in preparing the final
report.

        DOD Directive 7650.3 requires that all recommendations be resolved promptly.
Therefore, we request that the Navy provide additional comments on
Recommendation 1. and the Defense Logistics Agency provide additional comments on
Recommendations 2.a., d., and e. by September 1, 1998. We request the Defense
Logistics Agency also provide comments on the potential monetary benefits.

         We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Mr. Tilghman A. Schraden at (703) 604-9 186 (DSN 664-9186),
e-mail tschraden@dodig.osd.mil or Ms. Kathryn L. Palmer at (703) 604-8840
(DSN 664-8840), e-mail kpalmer@dodig.osd.mil. See Appendix E for the report
distribution. The audit team members are listed inside the back cover.




                                  David K. Steensma
                           Deputy Assistant Inspector General
                                     for Auditing
                            Office of the Inspector General, DOD

Report No. 98-172                                                          July 2, 1998
   (ProjectNo. 7LD-30 11)

       Contract Terminations at Defense Sup lyc~;o;;                Columbus
                 and Defense Supply Center kl

                                   Executive Summary

Introduction. In its testimony before Congress, the General Accounting Office stated
that about $34 billion, about half of the DOD inventory of secondary items, was not
needed to support war reserve or current operating requirements. As part of its
National Performance Review Reinvention Impact Center, DOD set a goal of reducing
DOD inventory by $12 billion by the year 2000. DOD incorporated the goal into its
Government Performance and Results Act plan. DOD inventory control points, which
manage spare and repair parts, procure supply items, and award contracts, initiate
contract terminations to avoid the purchase of unneeded inventory. Defense Logistics
Agency @LA) inventory control points are located at four supply centers. From
September 1996 to July 1997, the DLA supply centers, excluding the Defense Supply
Center Philadelphia,’ had 38,192 purchases in process, valued at about $664 million,
for materiel that potentially exceeded requirements. Included in those totals, the
Defense Supply Center Columbus and the Defense Supply Center Richmond had
19,803 purchases in process, valued at about $522 million.

Audit Objectives. The overall audit objective was to determine whether the DLA
wholesale inventory control points terminated the procurement of excess quantities of
materiel in response to reduced inventory requirements. Specifically, we followed up
on the recommendations made in Inspector General, DOD, Report No. 93-146,
“Contract Terminations at DOD Wholesale Inventory Control Activities, n
June 30, 1993. We included a review of the management control program as it applied
to the audit objectives. This report focused on two DLA inventory control points: the
Defense Supply Center Columbus and the Defense Supply Center Richmond. A
subsequent report will address the same audit objectives at the two remaining supply
centers.

Audit Results. The Defense Supply Center Columbus and the Defense Supply Center
Richmond did not aggressively pursue terminations of contracts and purchase requests
for materiel that potentially exceeded requirements. Of 251 notices of excess
procurement, valued at $179.3 million, about $47.1 million of materiel on order were
not effectively reviewed and promptly processed over a lo- or 1 l-month period. As a
result of the audit, $2.4 million of the $47.1 million was terminated by the two supply
centers. An additional $10.7 million was received in inventory. Until improvements
are made in the termination process for contracts and purchase requests, DLA is at
increased risk of adding unneeded materiel to the supply inventory.



‘Defense Supply Center Philadelphia could not provide data on the value of notices of
excess procurement because the termination model based on the Standard Automated
Materiel Management System was not operational.
DLA had not completed correcting the material management control weakness on
untimely contract terminations at wholesale inventory control points that was reported
in Inspector General, DOD, Report No. 93-146 (Appendix A).

!mplementing the recommendations should contribute to reducing DOD supply
mventones consistent with the DOD goals. Terminating contracts and purchase
requests for excess procurements could result in up to $34 million of potential monetary
benefits in addition to the $2.4 million realized during the audit. See Part I for a
discussion of the audit results.

Summary     of Recommendations.     We recommend that the Navy and the Air Force
supply centers provide DLA with information on consumable item transfers and
contracting officers execute timely terminations. We recommend that DLA develop
controls to ensure timely review and action on notices of excess procurement and
recommendations for termination; follow guidance that requires specific documentation
of customer-forecasted requirements; apply uniform thresholds to the review of
consumable item transfers; include prompt resolution of notices of excess procurement
as a performance indicator in DLA plans; and perform a special review to determine if
excess procurements could be terminated.

Management       Comments. The Navy concurred with the recommendation, but stated
that the Navy inventory projections will take precedence over DLA. The Air Force
agreed to send a memorandum to the Air Logistics Centers that reemphasizes the need
to follow the DOD guidelines for timely responses. DLA concurred, stating that
milestones for correcting the existing material control weakness will establish a system
of controls for the timely review and tracking of termination actions. DLA also stated
that it sent a policy letter to its supply centers on customer-forecasted requirements;
that it will implement revised contract review thresholds; that it will achieve the
necessary improvements in the resolution of notices of excess procurements through
existing goals and strategies addressing process timeliness; and that it initiated the
review of 59 items to determine if the items were excess and processed in accordance
with guidelines. See Part I for a discussion of management comments and Part III for
the complete text of management comments.

Audit Response. Although the Navy comments were partially responsive, it did not
provide specific actions and completion dates to ensure Navy item managers would be
responsive to DLA requests for information and recommendations to terminate
contracts for consumable items. The Air Force comments were responsive. The DLA
comments were partially responsive. DLA has revised the target date, and associated
milestones, for correcting a material control weakness on timely contract terminations
every year since 1993 but has yet to correct the weakness. DLA did not provide
specific details on whether performance indicators were implemented in guidance to
supply centers or added to the Supply Center Annual Performance Plans’
overprocurement goals. Based on DLA comments to the draft report, we revised the
recommendation for DLA to review notices of excess procurements and terminate those
items that are excess. We request that the Navy and DLA provide additional comments
to the final report by September 1, 1998.




                                           ii
Table of Contents


Executive Summary

Part I - Audit Results
      Audit Background                                 2
      Audit Objectives                                 3
      Excess Procurement Termination Process           4


Part II - Additional Information
      Appendix A. Audit Process
        scope
        Methodology
        Management Control Proeram
      Append& B. Summary of PYior Coverage
      Appendix C. Contract Termination Guidance
      Appendix D. Excess Procurement Sample
      Appendix E. Report Distribution


Part III - Management Comments
      Department of the Navy Comments
      Department of the Air Force Comments        ;i
      Defense Logistics Agency Comments           33
Part I - Audit Results
Audit Background
    Defense Inventory Management. In February 1997, the General Accounting
    Office (GAO) identified DOD inventory management as a high risk management
    problem in its “High Risk Series: An Overview, * GAO/HR-97-1. In its
    testimony before the House Subcommittee on National Security, International
    Affairs, and Criminal Justice, on “Defense Inventory Management,”
    March 20, 1997, GAO maintained that about $34 billion, or about half of the
    DOD $69.6 billion inventory of spare parts and other secondary inventory items
    was not needed to support war reserve or current operating requirements.

    Consistent with the GAO testimony, the DOD set goals of reducing inventory.
    In the 199611997 edition of the DOD Logistics Strategic Plan, DOD set
    inventory reduction as one of several goals aimed at streamlining the logistics
    infrastructure. The DOD Logistics Strategic Plan for 1996/1997 states that
    every logistics dollar expended on unneeded inventory is a dollar not available
    to build, modernize, or maintain warfighting capability.

    Role of Inventory Control Points. The DOD supply system uses wholesale
    inventory control points (ICPs) to manage spare and repair parts and other
    consumable items. The Defense Logistics Agency (DLA) manages four ICPs:
    Defense Supply Center Columbus (DSCC), Defense Supply Center Richmond
    (DSCR), Defense Industrial Supply Center Philadelphia, and Defense Supply
    Center Philadelphia. ICPs procure supply items based on customer demand
    factors obtained from several sources. Those sources include records of
    reported inventory on hand and on order, historical demand, and customer
    forecasts of demand. Customer forecasts of demand include planned
    maintenance as well as changes to historical use. ICPs may award contracts for
    materiel in excess of requirements due to changes in demand. For example,
    when changes occur in authorizations or quantities of weapon systems being
    supported due to a change in a military mission, the need for on-hand and
    on-order material may change for those systems. Additionally, attrition,
    changes in demand, repair, and other factors that justified procurement of the
    items can cause ICPs to have unneeded material on order from contractors.

    Guidance on Contract Terminations. DOD policy on contract terminations is
    contained in DOD Regulation 4140. l-R, “DOD Materiel Management
    Regulation, n January 25, 1993. The regulation includes guidance on ICP
    procedures and responsibilities for item managers and contracting officers in
    determining and processing contract terminations. Additional guidance was
    issued on business rules for consumable item transfers that affect contract
    terminations. The Federal Acquisition Regulation, subpart 49.101, “Authorities
    and Responsibilities, * requires that contracting officers terminate unneeded
    materiel from contracts when it is in the Government’s best interest. See
    Appendix C for a discussion of guidance on contract terminations.
Audit Objectives
     The overall audit objective was to determine whether the DLA wholesale ICPs
     terminated the procurement of excess quantities of materiel in response to
     reduced inventory requirements. Specifically, we followed up on the
     recommendations made in Inspector General, DOD, Report No. 93-146,
     “Contract Terminations at DOD Wholesale Inventory Control Activities,”
     June 30, 1993 (Inspector General, DOD, Report 93-146). Additionally, we
     evaluated DLA criteria and termination models for determining the benefits of
     terminating excess materiel on contract, and the effectiveness of contract
     termination policies. We included a review of the management control program
     as it applied to the audit objectives. The audit focused on two DLA inventory
     control points, DSCC and DSCR. A subsequent report will address the same
     audit objectives for the Defense Industrial Supply Center Philadelphia and the
     Defense Supply Center Philadelphia. See Appendix A for a discussion of the
     audit scope and methodology and our review of the management control
     program. See Appendix B for a summary of prior coverage.




                                        3
             Excess Procurement                    Termination             Process
            DSCC and DSCR did not aggressively pursue potential terminations of
            contracts and purchase requests for materiel that exceeded requirements.
            Of 25 1 notices of excess procurement’ valued at $179.3 million, we
            identified approximately $36.4 million of potentially excess materiel on
            order that had not been effectively reviewed and promptly processed
            over a lo- or 1 l-month period’ at the ICPs. The condition occurred
            because DLA did not institute procedures and controls that ensured the
            timely review and prompt processing of termination actions at DSCC
            and DSCR and the input of accurate data into internal termination
            models. Additionally, DLA did not establish uniform dollar thresholds
            to effectively manage consumable items transferred from the respective
            Military Departments, and Navy and Air Force ICPs did not provide the
            required information. Finally, DLA did not place sufficient
            management emphasis on contract terminations. The purchase of excess
            materiel resulted in lost opportunities to reduce the DOD inventory of
            secondary items, as well as lost opportunities to put funds to better use.


Pursuit of Potential Terminations
     DSCC and DSCR did not aggressively pursue potential terminations of contracts
     and purchase requests for materiel that exceeded requirements. The Inspector
     General, DOD, Report No. 93-146 reported that, historically, the ICPs
     terminated only a small portion (from 2.4 percent to 8.6 percent) of the materiel
     on contract when their automated system identified quantities as exceeding
     forecasted requirements. We reviewed a judgmental sample of 251 notices of
     excess procurement from the two ICPs. Only 25 of the procurements associated
     with those 251 notices were terminated by the ICPs prior to our audit.

     Sample Items. For a lo- or 11-month period, September 1996 through
     July 1997, DSCC and DSCR had notices of excess procurement for
     19,803 purchases valued at about $522 million. From those notices, we
     selected for review 251 items with a value of about $179.3 million. Although
     the 251 items represented only about 1.3 percent of the total number of items
     listed on the notices of excess procurement, the sample items accounted for
     about 34 percent of the total dollar value of the items identified as potentially
     excess procurements at DSCC and DSCR.



     ‘Notice of excessgrocurement is used throughout this report to refer to the
     sample group of due-m studies” that contamed a notice of potentially excess
     procurement.
     data available for the DSCC sam le covered a lo-month time period,
     September 1996 through June 199! ; the sample data for DSCR covered an
     11-month period, September 1996 through July 1997.


                                          4
                                            Excess Procurement   Termination   Process

     Potential Terminations.     Of the sampled $179.3 million in materiel, contracts
     and purchase requests for $47.1 million potentially exceeded future
     requirements for the lo- or 1l-month period. During that time period, DSCC
     and DSCR had reviewed the notices of excess procurement and determined that
     $124.2 million of the $179.3 million of potential excess procurements was not
     in actual excess of inventory requirements. ICP reviews of the sample items
     also identified potential excess procurements in the amount of $8 million that
     were terminated by the two ICPs prior to our audit. As a result of our
     memorandums requesting information during the audit, DSCC and DSCR
     terminated an additional $2.4 million of the $47.1 million that we identified as
     potentially excess. For example, we requested information from a DSCC item
     manager to determine why procurements of a fuel overhaul kit (National Stock
     Number WSNJ 2910-01225-7200) were not terminated. According to the data
     provided by the Standard Automated Materiel Management System (SAMMS),
     demands for that item had decreased to zero. In response to our October 6,
     1997, memorandum requesting information, the contracting officer canceled the
     procurement at no cost effective October 14, 1997, at a savings of $317,170.
     Although item managers responded to the audit memorandums, responses
     provided lacked detailed justifications for not taking termination actions on
     $44.7 million in potentially excess procurements. The table in Appendix D
     depicts the status of terminations for the items reviewed at DSCC and DSCR.

     As a followup to our analysis, we obtained data at the end of January 1998 from
     DSCC and DSCR on the status of the $44.7 million in procurements that we
     had identified as potentially excess. DSCC retained orders for sample items
     totaling about $2.2 million. DSCR retained orders for sample items in the
     amount of about $3 1.8 million. Although the total value of the notices of
     excess procurements had been reduced by about $10.7 million to $34 million,
     the reduction was primarily the result of receipt of inventory rather than
     cancellation of procurements.


Timeliness of Termination Actions
    DLA did not institute procedures and controls that ensured the timely review
    and prompt processing of termination actions at DSCC and DSCR to curtail
    procurements of unneeded materiel. Prompt action is critical as soon as it is
    realized that previous requirements are no longer valid because contractors
    continue production and incur additional cost for which the Government is
    liable.

    Processing Time. Of the 251 sample items at DSCC and DSCR, 172 sample
    items were processed beyond the 30 days required by DOD 4140.1-R (see
    Table 1). For 51 of those sample items, ICP personnel did not take timely
    action to obtain data required to determine the economic benefits of terminations
    or to terminate the purchases when the models specified that termination would
    be beneficial. On the remaining 121 sample items, DSCC and DSCR had
    insufficient documentation to evaluate the timeliness of termination actions.
    Item managers at DSCC documented the timeliness of their review in most
    instances. DSCR was responsible for the majority (104) of the items that lacked



                                        5
                                               Excess Procurement     Termination        Process

sufficient documentation. Although DOD Regulation 4140.1-R requires that
ICPs maintain appropriate records to ensure accountability of reduction
decisions, DLA and the two ICPs did not have procedures in place that tracked
timeliness of review.

                    Table 1. Processing Tie              of Sample Items
                                   (dollars in millions)

 Time                   DSCC                              DSCR                 Total
 (days1             Items   Value                 Items       Value        Items     Value

 On time
  l-30                  69       $58.2             10       $ 5.3           79       !§63.5
 Overdue
  31-60                 20          ;*;:            z         3.6           23            8.3
  61-90                                                       1.2                         4.0

  over 120
  91-120                 :          1:8             91        i-96          ::2           ;.;:
 Unknown                1:          ::;           104        90:3          121           96:0

       Total          119        $73.4            132      $105.9          251      $179.3


 ‘Elapsed days from date of system notification of excess procurement to date of item
 manager decision.
 bknown     refers to sample items that lacked documentation of processing timeliness.



Tracking Tiieliness.     DSCC and DSCR did not have a management system in
place to track timeliness of reviews for notifications of excess procurement and
to track termination actions resulting from those reviews. DSCC was in the
process of completing enhancements to the Contract Administration Tracking
System. That automated system, when fully functional, may provide the
required capability to track timeliness of the review of excess procurement
notices and link those reviews to excess procurement terminations executed by
contracting officers. As of February 1998, the SAMMS-based automated
termination model that produces the notices of excess procurement was the
principal tool for ICPs to identify potentially excess procurements. However,
DLA did not incorporate procedures and controls into the use of that automated
termination model to ensure prompt and effective actions were taken to curtail
procurements of unneeded materiel.

In the sample items that we reviewed, prompt action by ICPs in reviewing
notices of excess procurement appeared to have a relationship to the success of
terminating excess procurements. DSCC processed 69 out of 119 of its notices
of excess procurement within 30 days, and DSCR processed 10 out of 132
within 30 days. The termination rate prior to the audit for DSCC was more
than double that for DSCR. DSCC had terminated 18 out of 119 procurements
with an additional 6 terminations as a result of on-site questions from the audit
team. DSCR had terminated 7 out of 132 procurements and added




                                           6
                                         Excess Procurement     Termination   Process

    2 terminations as a result of the audit team’s on-site work. Appendix D depicts
    detailed data on the termination status of the sample items reviewed at both
    DSCC and DSCR.

    During the audit at DSCC, we identified an excess procurement of electron
    tubes (NSN 5960-00-411-1713) valued at $270,000. The item manager
    reported that he had personally notified the contracting officer in May 1996 that
    termination of the contract was recommended. The contracting officer
    explained that the contract was not terminated because the contract file could not
    be located. A tracking system would have identified the disconnect between the
    request to terminate and a termination action, but without the tracking system,
    the excess procurement was not identified and terminated. DSCC took
    immediate action during our audit to establish control of its contract files by
    using a bar code system on all contract files. However, DSCC did not institute
    a formal tracking system.


Procedures and Controls for Data and Termination Actions
    DLA did not have procedures and controls to ensure the input of accurate data
    into termination models. As result, the DLA termination model used for
    preparing notices of excess procurement often provided invalid information on
    whether termination of unneeded materiel might be economical.

    Reliability of Database.    The SAMMS database was unreliable because item
    managers entered inappropriate and unsubstantiated data into the database. As a
    result, the analytic output from the termination model was not a reliable source
    on which to base termination decisions. The termination model was integrated
    as a subroutine into SAMMS. It was designed to be an analytical tool to assist
    the inventory manager in identifying excess procurements and calculating the
    consequences of terminating excess quantities on order. The termination model
    used SAMMS database information to identify demand, inventory on hand,
    inventory on order, lead times, prices per unit, procurement cycles, safety
    levels, and special program requirements. However, because of inaccurate and
    unreliable data in SAMMS, the model provided excess procurement data that
    were of questionable reliability for making decisions to terminate procurements
    of excess materiel.

    Customer Forecasts. Customer forecasts were often inaccurate and lacked
    documentation as special program requirements (SPRs). DOD
    Regulation 4140.1-R requires that customer-forecasted requirements that are not
    based on demand data be submitted to the item manager as SPRs. DOD
    Components submitting SPRs are required to establish internal controls and
    maintain supporting documentation to ensure the appropriateness and accuracy
    of SPR submissions, correlate requisitions with related SPRs, and assure timely
    and accurate reporting of significant changes in requirements. Additionally, the
    requesting DOD Component is to ensure that investment in inventory to support
    SPRs is kept to a minimum.




                                        7
                                           Excess Procurement Termination Process

    Item managers used unsubstantiated data from informal customer forecasts not
    recorded or controlled as SPRs to justify increased quarterly forecasted demand
    and increased production lead-time quantities in the contract termination model.
    The unauthorized changes effectively changed an item manager’s appropriate
    recommendation for terminating an excess procurement to an inappropriate
    recommendation for retaining the item. For example, a customer-
    generated forecast of annual demand for 176 jet engine oil manifolds
    (NSN 2945-01139-2283) was not validated and documented as an SPR.
    Consequently, the unsubstantiated annual demand for the manifolds that was
    entered into SAMMS exceeded the historical demand of 32 items per year by
    144 items. The inflated customer demand resulted in a procurement for 421
    items at a value of $267,335 that exceeded requirements when compared to the
    historical demand. Our analysis showed that because the item manager
    bypassed the controls for entering valid data, SAMMS would not issue a notice
    of excess procurement for those 421 items and no termination action would be
    initiated.


Consumable    Items Transferred            from Military Departments

    DLA did not establish a uniform dollar threshold for reviewing consumable item
    transfers (CITs) from the Military Departments. Because of the large number
    of transactions with excess procurement and potential savings, DOD
    Regulation 4140.1-R requires a review of all purchase orders exceeding
    $25,000 prior to contract award. A dollar threshold is not specified in DOD
    Regulation 4140.1-R for review of purchases after contract award. Each ICP,
    in conjunction with DLA, establishes a dollar threshold for review of purchases
    that are on an existing contract. DLA raised the review threshold for CITs
    recently transferred to DLA from the Military Departments primarily for two
    reasons. First, DSCC and DSCR reported that Navy and Air Force ICPs that
    had previously managed the items were unresponsive to requests for information
    required to support termination decisions. The DLA ICPs did not report any
    difficulties obtaining information from Army ICPs. Second, the actual contract
    administration for the on-order shipments remained a Military Department ICP
    responsibility and DLA did not have authority over the Military Department
    contracting officers to ensure contracts for excess procurements managed at
    DLA were canceled. Because the DLA ICPs had those procedural difficulties,
    which were time-consuming and often unproductive, DLA changed the review
    threshold from $5,000 to $50,000 for CITs at DSCC. The dollar threshold for
    review at DSCR was changed from $10,000 to $75,ooO for CITs. There was
    no evidence that either DSCC or DSCR based the revised thresholds on an
    economic analysis of cost to perform the reviews versus the potential gain from
    canceling excess procurements.

    We reviewed the total number of notices of excess procurement for the lo- and
    11-month periods at DSCC and DSCR to identify the impact of the revised
    dollar thresholds. We determined how many additional notices of excess
    procurement would have been reviewed for potential savings if DSCC and
    DSCR had applied uniform thresholds to all items. If DSCC had followed the
    established dollar threshold for review of notices of excess procurements of
    potential savings in excess of $5,000, an additional 4,711 notices would have


                                       8
                                          Excess Procurement    Termination    Process

    required review. The value of the additional review was estimated to be
    $74.6 million. Following the established threshold of $10,000 in potential
    savings at DSCR would have required the review of an additional 5,219 items
    with an estimated value of $150 million. We believe that the potential for
    additional savings that could be identified and gained justifies a more aggressive
    pursuit of the review of all items that meet the established thresholds already in
    place at the ICPs.


Management Emphasis on Terminations
    DLA did not place sufficient management emphasis on preventing excess
    procurements. The DLA Corporate Plan3 undated, did not have a stated goal
    or performance indicator that measured progress in curbing excess
    procurements. The FY 1997 annual performance plans of the supply centers set
    goals for performance in critical indicators that were established from
    coordination between the ICPs and DLA. The DLA ICPs regularly briefed
    DLA management on the performance indicators contained in Supply Center
    Annual Performance Plans. Excess procurements and timely review of notices
    of excess procurement were not performance indicators in Supply Center
    Annual Performance Plans briefed to DLA management in FY 1997. During
    the course of the audit, DLA took action to establish overprocurement goals as
    an ICP performance measure for FY 1998.

    DLA Emphasis.      DLA management did not track trends in excess
    procurements. As a result of the Inspector General, DOD, Report No. 93-146,
    DLA attempted to gain oversight of terminations in June 1993 by establishing a
    monthly requirement for data on contract terminations at each ICP.’
    Specifically, DLA tasked ICPs to provide cancellation data to facilitate an
    accurate account of the effects of termination and cancellation actions of the
    inventory reduction program. DLA personnel reported that the database on
    cancellation actions was no longer maintained, although the requirement had not
    been formally canceled. DLA personnel also indicated that they did not plan on
    making the requirement an action item because the management philosophy had
    changed in the interim and management of ICPs was now a decentralized
    function.

    Without the DLA reporting requirement for ICPs, item managers paid less
    attention to reviewing notices for excess procurements. For example, in
    December 1996, at DSCR, a product center supervisor disregarded the
    requirements in DOD Regulation 4140.1-R as well as local procedures5 by
    suspending reviews of termination notices for all items in his product center.
    The product center supervisor stated that item managers did not have time to do

    3DLA did not have a strategic plan durin the course of our audit. DLA
    documented its corporate strate y in the Horm of a Corporate Plan. The first
    DLA Strategic Plan was publis hed in March 1998.
    4DLA memorandum, “Terminations, )) June 21, 1993.
    ~u~;Thc~y documentation of local procedures was in the DSCR FY 1995 budget
             .



                                         9
                                     Excess Procurement     Termination   Process

the reviews of the termination model notices and, therefore, relied on the
military item manager’s judgment in requesting the purchase. He also noted
that there was no incentive to prevent excess procurements because the
purchases were made with Military Department funds instead of DLA funds.
As a result, notices of excess procurement for the approximately 2,000 items
handled by this particular product center were not reviewed for.a period of
approximately 9 months. However, reviews were resumed between the time of
our initial visit to DSCR in August 1997 and the time of our return visit in
October 1997.

Requests for Information      and Justifications.  Item managers at DSCC and
DSCR did not provide sufficiently detailed justification for not terminating the
procurement of 59 of 67 items we questioned in memorandums. Of 43
 memorandums that we issued to DSCR personnel requesting information and
justifications, only 2 led to the termination of excess procurements valued at
about $700,000. Many of the item manager justifications provided in response
to our request for information were questionable because they were based on
demand that was not properly documented.

For example, an item manager at DSCR recorded 2,188 units of stockage
requirements for a jet engine part (NSN 2840-01-179-6811) as “other
production lead time” in SAMMS. This requirement was based on an informal
customer forecast rather than a formally documented SPR as required by
DOD Regulation 4140.1-R. The action by the item manager to enter a
requirement under the category of other production lead time resulted in the
termination model specifying that the termination of any of the order would not
be economical. As a result, the item manager had demand for 2,188 items
rather than the 360 items that were supported by historical annual demand data.
Improperly documented demand based on informal customer requirements for
an additional 1,818 units resulted in a procurement for about $3.8 million in
excess materiel.

Out of 24 memorandums we issued to DSCC personnel, 6 led to termination of
excess procurements totaling about $1.7 million. The actions resulting from our
memorandums requesting information and justification are summarized in
Table 2. Of the $47.1 million in potential terminations identified by our
memorandums, $44.7 million in purchases were not terminated. Since the
conclusion of our on-site audit, DSCC and DSCR have reduced the amount of
potentially excess procurement for the memorandum items to about $34 million.
The $10.7 million reduction was the result of receipt of inventory rather than
subsequent contract terminations.




                                    10
                                          Excess Procurement      Termination   Process


                  Table 2. Results of Audit Memorandums
                             (dollars in millions)

                          DSCC               DSCR               Total
      Action           Items Value       Items Value         Items Value

     Terminated          6     $1.7        2         $0.7     8      !§2.4

      Not terminated    18      4.9       41          39.8   59       44.7

        Total           24     $6.6       43         $40.5   67      $47.1




Conclusion
    Reduction of DOD supply inventories by $12 billion is a Government
    Performance and Results Act goal for DOD. DLA can contribute toward the
    DOD goal of inventory reduction by improving its management of terminations
    of excess procurements. With timely reviews of notices of excess procurement,
    DLA might still terminate excess procurements with potential monetary benefits
    up to $34 million in addition to the $2.4 million terminated during the audit.
    Actions taken by DLA to address this problem over the past several years have
    been ineffective.


Recommendations, Management Comments, and Audit
Response
    Deleted Finding, Renumbered Recommendations,       and Revised
    Recommendation.    We deleted draft Finding B and its recommendations
    because the material control weakness is sufficiently addressed in Appendix A
    of the report and implementing the recommendations for the remaining finding
    should correct the weakness. Deleting draft report Finding B and its
    recommendations resulted in the renumbering of Recommendations A. 1. and
    A.2. as 1. and 2., respectively. As a result of DLA comments to the draft
    report, we revised the renumbered Recommendation 2.e. to clarify our intent.

     1. We recommend that the Deputy Chief of Naval Operations (Logistics)
     and the Commander, U.S. Air Force Materiel Command, emphasize that:

           a. Item managers provide the Defense Logistics Agency information
    on contract terminations concerning consumable items transferred to the
    Defense Logistics Agency for management.

           b. Contracting officers execute timely contract terminations         when
     recommended by the Defense Logistics Agency.




                                         11
                                     Excess Procurement Termination Process

Navy Comments. The Navy generally concurred, stating that its item
managers provide information necessary for making termination decisions.
However, it also stated that Military Departments are weapon system managers
and DLA is a commodity manager. The Navy stated that the DLA inventory
model does not recognize factors necessary for determining weapon system
inventory projections. Consequently, if there is disagreement with DLA
concerning an inventory level, the Navy inventory projections will take
precedence.

Audit Response. The Navy comments were partially responsive. The Navy
did not provide specific actions and completion dates to ensure that Navy item
managers would be responsive to DLA requests for information and
recommendations to terminate contracts for consumable items that were
transferred to DLA for management. Therefore, we request the Navy provide
additional comments in response to the final report.

Air Force Comments. The Air Force concurred, stating that business rules in
DOD Regulation 4140.26-M provide instructions for both the gaming and losing
organization personnel on proper coordination and timely execution of
terminations. The Air Force stated it would send each Air Logistics Center a
memorandum that reemphasizes the need to follow the rules in
DOD Regulation 4140.26-M. The memorandum would specifically cite the
requirement to respond to DLA in a timely manner on termination decisions.
The Air Force stated it would send the memorandum by June 19, 1998.

2. We recommend that the Director, Defense Logistics Agency:

       a. Develop procedures and controls to ensure that inventory control
points perform timely review and tracking of termination actions at the
item manager and contracting officer level.

DLA Comments. DLA concurred, stating that this is addressed in its current
milestones for closing the existing material control weakness in this area. The
estimated completion date is August 1998.

Audit Response. The DLA comments were partially responsive. DLA
reported timely processing of excess procurements as a material control
weakness in its FY 1993 annual statement of assurance. The FY 1993 annual
statement identified the target correction date as FY 1994 and provided planned
milestones to achieve the necessary correction. Since 1993, DLA has revised
the target correction date and associated milestones every year through
FY 1997, but it has yet to correct the weakness. Consequently, we have limited
assurance that the current DLA milestones for correcting the material control
weakness will be met. Therefore, we request that DLA provide the specific
actions that will be completed by September 30, 1998, in response to the final
report.

       b. When appropriate, require that a customer-forecasted
requirement be submitted as a Special Program Requirement in keeping
with DOD Regulation 4140.1-R, “DOD Materiel Management Regulation,”
January 25,1993.



                                    12
                                     Excess Procurement     Termination   Process

DLA Comments.      DLA concurred, stating that it sent a policy letter to Defense
Supply Centers dated April 17, 1998.
        c. Make the dollar threshold for reviewing consumable item
transfers consistent with the threshold established by inventory control
points for reviewing all other categories of procurements.

DLA Comments.       DLA partially concurred, stating that the current policy was
established in coordination with the DLA Defense Supply Centers and the
Services. The thresholds for consumable items were established to provide the
most cost-effective review process by the Services for contract terminations
based on workload and available resources. DLA will assess the work load
associated with the revised review thresholds; request Military Department
concurrence with recommended changes; and, if feasible, implement the revised
contract review thresholds. The estimated date of completion for the planned
action is July 31, 1998.

       d. Include prompt resolution of notices of excess procurement as a
performance indicator in Supply Center Annual Performance Plans as well
as the Defense Logistics Agency Strategic Plan.

DLA Comments. DLA partially concurred, stating that it evaluated supply
center processes to develop strategies implementing the Supply Center Annual
Performance Plans’ overprocurement goals. The need for more intensive
management was reflected in April 30, 1998, guidance to the centers. DLA is
confident that the necessary improvements can be achieved through existing
goals and strategies addressing process timeliness.

Audit Response. The DLA comments were partially responsive. DLA did not
provide specific details on whether performance indicators were implemented in
the April 30, 1998, guidance or in the Supply Center Annual Performance
Plans’ overprocurement goals. Therefore, we request that DLA clarify its
position in response to the final report.

       e. Determine if notices of excess procurement for each of the
59 items identified during the audit were valid and terminate those items
that were not terminated by Defense Supply Center Columbus and Defense
Supply Center Richmond.

DLA Comments.       DLA partially concurred, stating that it initiated the review
of 59 items to determine if the items were in true excess and processed in
accordance with policy and procedural guidelines. DLA requested that the
recommendation in the draft report be revised because the recommendation
implied that the items in question were overprocured and not “potential”
overprocurements. The estimated completion date for DLA to review the
59 items is June 1998. DLA did not comment on the $34 million in potential
monetary benefits related to the review and termination of the 59 items reported
as excess.

Audit Response. Based on DLA comments, we revised the recommendation.
We request DLA comment on the revised recommendation and the $34 million
in potential monetary benefits in response to the final report.


                                    13
Part II - Additional Information
Appendix A. Audit Process

Scope

    Work Performed. We performed the audit at DLA headquarters and two DLA
    ICPs: DSCC and DSCR. We reviewed documents dated from January 1993
    through November 1997 that included:

          l DOD regulations and DLA procedures and practices on materiel
    management;

            l DOD policies, procedures, and practices for inventory reduction and
    the review and cancellation of procurements of excess materiel;

            l  due-in studies containing notices of excess procurement for a sample
    of 251 items, ICP item manager supply system studies, monthly ICP summary
    reports of excess procurements, and contract and purchase requests terminated;

           l   business rules for consumable item transfers;

           l documents describing the contract termination model (Termination for
    Convenience Decision Support Model) used to prepare notices of excess
    procurement;

            l budget execution plans at DSCC and DSCR that provided the criteria
    for review of potential savings identified in the notices of excess procurement;
    and

           _ l_ _DLA
                  __ correspondence that authorized the review thresholds of
    potential dollar value cited in the budget execution plans.

    We also obtained overviews of DSCC and DSCR efforts to automate the
    contract termination management process.

    Limitations to the Audit Scope. The audit was limited to the review of due-in
    studies having notices of excess procurement at DSCC and DSCR. A
    subsequent audit will cover the same audit objectives at the two remaining DLA
    supply centers: Defense Industrial Supply Center Philadelphia and Defense
    Supply Center Philadelphia.

    Our review of notices of excess procurement was limited to a judgmental
    sample of 119 items at DSCC and 132 items at DSCR. The sample group of
    251 items was based on selecting the high dollar value items that could generate
    the largest potential savings at the two ICPs. The data at DSCC covered the
    lo-month time period, September 1996 through June 1997, and the data for
    DSCR covered the 11-month time period, September 1996 through July 1997.



                                        16
                                                         Amendix A. Audit Process

    Our review of the contract termination model was limited to descriptive
    documents and observing the results of the model on notices of excess
    procurement. We did not review the equations used by the model, nor did we
    review the programming for the model, which is described as a subroutine of
    SAMMS. Although we requested information on the equations and the
    programming used in the model during our audit, DLA was not able to provide
    the information. We did not review a second contract termination model, a
    personal computer application used by contracting officers to determine if
    actually terminating a contract order whose quantities have previously been
    identified as excess would be economical.


Methodology

    We reviewed DOD, DLA, DSCC, and DSCR policies and procedures for
    evaluating notices of excess procurement. We also interviewed personnel at
    DLA, DSCC, and DSCR regarding internal policies and procedures for
    managing excess procurements and terminating purchase requests and contracts.
    We performed an in-depth review of 251 notices of excess procurement at
    DSCC and DSCR. Our review also included interviews with item managers,
    contracting officers, and supervisors at the ICPs to clarify the data in the notices
    of excess procurement and to obtain supporting rationale for decisions to
    terminate or not terminate the procurements. As a method of verifying the data
    in the notices of excess procurement, we independently calculated the value of
    the stock objective using demand history, lead times, procurement cycles, and
    safety levels obtained from the termination model and the item manager. As a
    result of our independent verifications and the interviews with ICP personnel,
    we verified that 184 out of the total sample of 25 1 notices of excess
    procurement were not excess or had already been terminated. Criteria used for
    determining whether continuing a procurement action was justified or
    potentially excess was based on the requirements in DOD Regulation 4 140.1-R.
    We issued a standard memorandum to the item managers and their supervisors
    for each of the remaining 67 NSNs that lacked justification for continued
    procurements. The memorandum requested additional information about the
    NSNs with potentially excess procurements. That information included the
    required stock objective; a determination of whether the quantities being
    procured were excessive; an explanation of why the procurement in question
    should or should not be terminated; and an explanation of the quantity
    terminated and the associated dollar savings. We reviewed the item manager
    responses to the memorandums to determine if sufficient documentation was
    provided to justify the continued procurement. Those NSNs for which item
    managers said actions had been initiated to terminate the procurements in
    question were categorized as terminated. Timeliness of review of notices of
    excess procurement was determined by comparing the date of the notice of
    excess procurement and date of the item manager’s review. Finally, we
    performed a limited review of the SAMMS-based termination model and DLA
    preparations for year 2000 issues.




                                         17
                                                   Appendix A. Audit Process

DOD-Wide Corporate Level Government Performance and Results Act
(GPRA) Goals. In response to the GPRA, DOD established 6 DOD-wide
corporate level performance objectives and 14 goals for meeting these
objectives. This report pertains to achievement of the following objective and
goal.

          Objective:    Fundamentally reengineer DOD and achieve 2 1st century
          infrastructure. Goal: Reduce costs while maintaining required
          military capabilities across all DOD mission areas. (DOD-~)

National Performance    Review Reinvention Impact Center Goal. This report
relates to achievement of the goal of reducing supply inventory by $12 billion
by the year 2000. (ACQ-3.3)

DOD Functional     Area Reform Goals. Most major DOD functional areas have
also established performance improvement reform objective and goal. This
report pertains to achievement of the following functional area objective and
goal.

          Logistics Functional Area. Objective: Streamline logistics
          infrastructure. Goal: Implement most successful business practices
          fgr3g$         reductions of minimally required inventory levels).
                  .

General Accounting Office High Risk Area. The General Accounting Office
has identified several high risk areas in DOD. This report provides coverage of
the Defense Infrastructure and Defense Inventory Management high risk areas.

Use of Computer-Processed      Data. To achieve the audit objective, we relied
on computer-processed data from the termination model that is a subroutine of
SAMMS to identify the universe of excess procurements. We determined the
accuracy of the data during our interviews with item managers. Because we
verified the accuracy of the data with item managers, inaccurate data did not
materially affect our audit conclusions. We verified quantities on order, on
hand, lead times, and forecasted demand. The item managers were responsible
for maintaining the SAMMS database used by the termination model to
determine excess procurements. Some items were entered more than once in
the database as a potential excess procurement. For those duplicate entry items,
we screened the database to eliminate all but the most recent entry based on the
most recent termination model study. To the extent that we reviewed data from
SAMMS, we concluded that the data were either accurate or that other
evidence was sufficiently reliable to meet our audit objectives.

Universe and Sample. The universe of the potential excess procurements
consisted of the notices of excess procurement provided by the SAMMS-based
termination models at DSCC and DSCR. DSCC provided data on excess
procurements from September 1996 through June 1997. DSCR provided data
on excess procurements from September 1996 through July 1997. DSCC and
DSCR together had 19,803 purchases in progress valued at about $522 million
for materiel that potentially exceeded requirements. From that universe, we




                                   18
                                                        Appendix A. Audit Process

    selected for review a group of 251 potential excess procurements that had the
    greatest dollar value. At DSCC, a group of the 119 highest dollar items were
    reviewed; at DSCR, the 132 highest dollar items were reviewed.

    Use of Technical Assistance. The Technical Director and an operations
    research analyst from the Quantitative Methods Division, Office of the Assistant
    Inspector General for Auditing, DOD, assisted in reviewing the universe of
    items provided by DSCC and DSCR. The Quantitative Methods Division
    eliminated repeated items, retaining the more recent items for use in our review.
    The Quantitative Methods Division also reviewed documents on the termination
    model provided to us by the DLA.

    Audit Type, Dates, and Standards. We performed this economy and
    efficiency audit from July 1997 through February 1998 in accordance with
    auditing standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DOD. We included tests of management
    controls considered necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DOD and the General Accounting Office. Further
    details are available on request.


Management      Control Program

    DOD Directive 5010.38 requires DOD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended an to evaluate the adequacy of
    the controls.

    Scope of Review of Management Control Program. We reviewed the
    adequacy of management controls in place at DLA, DSCC, and DSCR as they
    pertained to reviewing notices of excess procurement and terminating contracts
    and purchase requests.

    Adequacy of Management Controls. The management controls at DLA,
    DSCC, and DSCR were not adequate in that notices of excess procurement were
    not promptly and adequately reviewed and contracts and purchase requests were
    not promptly terminated. As a result, the material weakness of untimely
    contract terminations disclosed in each annual statement of assurance since
    FY 1993 was not resolved. Implementation of the recommendations in the
    finding will resolve the material weakness and may result in up to $34 million
    in potential monetary benefits in addition to the $2.4 million realized during the
    course of the audit. A copy of the report for this audit will be provided to the
    senior officials responsible for management controls at DLA, DSCC, and
    DSCR.




                                        19
                                                    Appendix A. Audit Process

Adequacy of Management’s Self-Evaluation.         DLA identified timeliness of
contract terminations as an assessable unit. It was listed as a material weakness
in the FY 1997 statement of assurance as well as each statement of assurance
since FY 1993. Although progress in correcting the weakness was reported in
each of the annual statements since FY 1993, DLA had not corrected the
material weakness.




                                   20
Appendix B. Summary of Prior Coverage

    During the past 5 years, the Inspector General, DOD, and the audit
    organizations of the Military Departments issued four reports that discussed
    various elements of requirements determination and controls over potential
    contract terminations. We have summarized the reports below.


Government     Accounting Office

    General Accounting Office, Report No. GAO/NSIAD-98-86, OSD No. 1565,
    “Navy Inventory Management, ” April 30, 1998. The report focused on
    excess inventory the Navy had on order. The report recommended that
    Congress may wish to consider requiring the Secretary of Defense to direct the
    Secretary of the Navy to issue guidance revising Navy computation process
    requirements to eliminate planned program requirements that are duplicated in
    reorder levels. The report states that purchases were not based on valid needs
    for 68 of 200 items reviewed, with $13 million also included in the reorder
    level requirement, and therefore counted twice as requirements; were excess to
    needs because the requirements changed after orders were placed; and occurred
    even though contracts could have been canceled but were not because the Navy
    added “protection levels” representing as much as 2 years of usage. The report
    recommended that Navy improve the validity of requirements by updating
    demand forecasts in a timely manner; eliminate l- and 2-year protection levels
    when considering purchases for cancellation; and reemphasizing to item
    managers that they have the responsibility to direct cancellation of contracts.
    DOD partially agreed with the report. DOD agreed that Navy demand forecasts
    should be updated. DOD also agreed that the Navy would reiterate contract
    termination policy with item managers. However, DOD did not agree to
    eliminate protection levels when considering contracts for termination.


Inspector General, DOD

    Inspector General, DOD, Report No. 97-226, “Consumable Item Transfer,
    Phase II, Management,” September 30, 1997. This report was the second m
    a series of reports regarding the CITs, phase II. The report states that the
    Military Departments improperly retained management of consumable items that
    should have been transferred to DLA. As a result, duplicate management of
    consumable items was not reduced to the extent originally planned. In addition,
    the Military Departments did not provide a full pipeline of inventory assets to
    DLA when transferring phase II items. The report recommended that the
    Deputy Under Secretary of Defense (Logistics) direct the Military Departments
    to rescreen consumable items retained for management, transfer items
    appropriately, and justify the retention of items in accordance with the DOD
    policy. The report also recommended that the Military Departments establish
    controls to ensure that DLA is provided with full pipelines of assets for


                                       21
                                          Appendix B. Summary of Prior Coverage

     consumable item transfers, phase II items; expedite contractual orders; and
     advise the DLA inventory control points of delays and cancellations of purchase
     requests. DOD concurred with the findings and recommendations.

     Inspector General, DOD, Report No. 93-146, “Contract Terminations at
     DOD Wholesale Inventory Control Activities,” June 30, 1993. The report
     states that internal controls were not established to pursue potential terminations
     of contracts for significant quantities of materiel that exceeded future
     requirements. The report recommended the establishment of specific criteria on
     determining the benefits of terminating unneeded materiel on contract and a
     corresponding revision in existing termination models. The report also
     recommended the development of controls over the evaluation of termination
     candidates and a system to track the timeliness of termination actions. The
     Military Departments and DLA generally concurred with the recommendations
     and DLA issued guidance to the ICPs.


Army Audit Agency
     U.S. Army Audit Agency, Report No. AA 98-53, “Contract Termination
     Process, U.S. Army Communications-Electronics Command, Fort
     Monmouth, New Jersey,” December 23, 1997. The report discussed an audit
     of the U.S. Army Communications-Electronics Command’s (the Command)
     contracting operations as they related to the termination of contracts. The
     report states that the Command’s current acquisition policies and procedures
     provided its personnel with adequate guidance related to the termination of
     contracts. The Command’s acquisition instructions outlined administrative
     policies and procedures for approving contracts for termination, executing no-
     cost settlement instead of termination, and processing contract modifications to
     release excess funds. The Command generally released excess funds timely
     from terminated contracts once it received instructions from termination
     contracting officers. As a result, the Army was able to reuse funds totaling
     about $6.3 million and also returned about $1.8 million to the Navy. However,
     the Command could have identified and released an additional $4.8 million if its
     contracting officers had periodically reviewed the status of terminated contracts.
     The report recommended that the Command coordinate with the Defense
     Contract Management Command and the Defense Finance and Accounting
     Service for the release of funds from particular contracts. The Command
     agreed. In addition, the report recommended that the Command direct
     contracting personnel to periodically review terminated contracts to determine if
     excess funds can be released. The Command agreed and implemented the
     recommendation in a procurement acquisition letter.


Naval Audit Service
     Naval Audit Service, Report No. 003-97, “Terminations of Contracts for
     Spare Parts at the Naval Inventory Control Points,” October 15, 1996. The
     report specifies that naval inventory control points did not identify and

                                         22
                                        Appendix B. Summary       of Prior Coverage

    deobligate $40.1 million in unused funds related to terminated contracts, for the
    period ranging from 4 to 65 months after such action was required. The report
    identified other problems, such as insufficient guidance, lack of communication,
    and inaccurate databases, which led to weak management controls over the
    processing of terminations. The report recommended that naval inventory
    control points establish a system to strengthen controls over the contract
    termination process, to improve the reliability of the automated contract
    termination database, and to deobligate and recoup the unused funds identified
    by the report. The Navy concurred with all recommendations and took or
    planned satisfactory corrective actions.


Air Force Audit Agency

    Air Force Audit Agency, Report No. 97425023, “Air Logistic Center
    Contract Termination,” June 20, 1997. The report was part of a centrally
    directed audit to evaluate the management of contract terminations at Air
    Logistics Centers. The report evaluated the justification used by the Warner
    Robins Air Logistics Center personnel for terminating excess items on order.
    The report states that Air Force Materiel Command personnel effectively
    terminated contracts for $8.9 million in excess items. However, more timely
    validation of excess on-order items could have resulted in additional contract
    terminations for items totaling $18.8 million. The report recommended that
    Warner Robins Air Logistics Center establish procedures to improve timeliness,
    ensure that all potential terminations are reviewed in a timely manner, and
    ensure that appropriate actions are taken. Management officials agreed with the
    recommendations.




                                       23
Appendix C. Contract Termination                             Guidance

   Materiel Management Guidance. DOD policy on contract terminations is
   contained in DOD Regulation 4140.1-R, “DOD Materiel Management
   Regulation, n January 25, 1993. This regulation states that ICPs will maintain
   appropriate records to ensure accountability of reduction decisions and the
   coordination of reduction decisions across functional areas. Reduction decisions
   are to be reached and implemented in a timely manner, normally within 30 days
   of generation of a notice of excess procurement. Item managers and contracting
   officers are primarily responsible for termination actions. Guidance requires
   that termination action shall be pursued if determined to be cost-effective and in
   the best interest of the Government. The regulation also states that, prior to
   contract award, item managers should place particular emphasis on validating
   requirements data used as the basis for orders exceeding $25,000.

   Consumable Item Transfer Guidance. Additional guidance for materiel
   management was established by business rules for CITs. Those business rules
   were established in response to the restructuring and consolidation of the
   Military Department materiel management functions under DLA. The rules
   specifically require that DLA not dispose of materiel transferred by the Military
   Departments until at least 2 years have passed from DLA assuming management
   of the item, unless the Military Department gives prior approval. The business
   rules precluding disposals do not prevent DLA from recommending that the
   Military Departments terminate excess procurements of CITs. In fact, the
   business rules require that DLA item managers ensure that all data, to include
   item manager folders and program-driven requirements information, have been
   considered prior to requesting cancellation or termination of any purchase
   request as a result of a notice of excess procurement.

   Item Manager Responsibilities. The DLA automated materiel management
   system, SAMMS, provides the input for the model that generated notices of
   excess procurement to the item manager. The notices recommend the reduction
   of purchase request or contract quantities when requirements decrease and the
   quantities on hand and on order exceed the quantity authorized for stockage of a
   particular item. Item managers are required by DOD Regulation 4140.1-R to
   verify data used in the requirements computation to ensure that the automated
   system’s identification of candidates for procurement reduction or total
   termination of an excessive quantity was appropriate. If assets on order after
   validation are excessive, the item manager is to recommend to the contracting
   officer reduction or cancellation of any excessive quantity that is on a purchase
   request in process. If materiel was on contract, the item manager is to
   determine whether termination of the excessive on-order assets would be
   economical.

   According to the guidance in DOD Regulation 4140. l-R, cost-effectiveness,
   after contract award, should be determined by a comparison of what it will cost
   to hold items in inventory versus the cost to terminate the same items from
   contracts, plus reprocurement costs, if known. If the item manager review of a



                                       24
                                Appendix C. Contract Termination       Guidance

notice of excess procurement determined that a termination action would be
economical, the item manager is to request the contracting officer to consider
terminating the excess quantity of materiel on contract.

Contracting    Officer Responsibilities.   DOD Regulation 4140.1-R requires that
the contracting officer promptly reduce or cancel orders before contract award if
requested by the item manager as a result of requirements analysis. After
contract award, the contracting officer is to validate the cost-effectiveness of
contract termination to ensure that cancellation is in the best interest of the
Government. The Federal Acquisition Regulation, subpart 49.101, “Authorities
and Responsibilities, n requires that contracting officers terminate unneeded
materiel from contracts when it is in the Government’s best interest. The
contract termination model that generates the notices of excess procurement was
designed to assist in that determination. DOD Regulation 4140.1-R requires
followup action on all requests for reduction or cancellation of contracts or
purchase requests to ensure that award quantities reflect reductions in
requirements.




                                    25
Appendix D. Excess Procurement                                      Sample


                 Status of Excess Procurement: DSCC and DSCR
                                Sampled Items Only
                                (dollars in millions)

                           DSCC                 DSCR                      Total
Action                 Items  Value         Items  Value             Items      Value

Before Audit
 Not excess              77      $61.5            82        $62.7      159    $124.2
 Terminated              18        5.3             7          2.7       25       8.0

   Subtotal              95      $66.8            89    $ 65.4        184     $132.2

During Audit’
 Terminated after
  Memorandum              6       $ 1.7            2    $     0.7        8    $ 2.4’

    Subtotal
     Terminated           6       S 1.7            2    % 0.7            8    % 2.4

 Not terminated
  Contract officer        8      $ 2.8             8    $     8.2      16     $ 11.0
  Item Manager           10        2.1            33         31.6      43       33.7

    Subtotal not
     Terminated          18      % 4.9            41    % 39.8         59     % 44.7

         Total          119      $73.4           132    $105.9        251     $179.3


‘Memorandums were issued to item managers requesting justification for
procuring items that we could not determine were required.

32.4 million represents actual savings gained during the audit.




                                            26
Appendix          E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
  Deputy Under Secretary of Defense (Logistics)
      Assistant Deputy Under Secretary of Defense (Materiel and Distribution
         Management)
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Public Affairs)

Department of the Army
Assistant Secretary of the Army (Installations, Logistics, and Environment)
Auditor General, Department of the Army
Commander, U.S. Army Materiel Command

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Deputy Chief of Naval Operations (Logistics)
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Commander, U.S. Air Force Materiel Command

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
General Accounting Office
   National Security and International Affairs Division
      Technical Information Center




                                           27
                                                  Appendix E. Report Distribution


Non-Defense Federal Organizations and Individuals (cont’d)
Chairman and ranking minority member of each of the following congressional
committees and subcommittees:

  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
  House Subcommittee on Government Management, Information, and Technology,
     Committee on Government Reform and Oversight
  House Subcommittee on National Security, International Affairs, and Criminal
    Justice, Committee on Government Reform and Oversight
  House Committee on National Security




                                         28
Part III - Management Comments
            Department of the Navy Comments
 Final Report
  Reference


                                        DEPARTMENTOF THE NAVY
                                      OPPICE
                                          OP THE    ASSISTANT   SECRETARY
                                    RESEARCN. OWEAOPMENT      AN0 ACOllISlTlON
                                             loo0 NAVY PENTAGON
                                           WASWINGTON DC 20350-$~
                                                     JN   5   :-+



                 MEMORANDUM FOR   THE DEPARTMENT OF DEFENSE ASSISTANT INSPECTOR
                                        GENERAL FOR AUDITING

                 SUBJECT: DEPARTMENT OF DEFENSE INSPECTOR GENEPAL DRAFT
                          AUDI? REPORT: CONTRACT TERMINATIONS AT DEFENSE
                          SUPPLY CENTER COLUMBUS AND DEFENSE SUPPLY CENTER
                          RICHMOND (Project No.?LD-3011)

                 REFERENCE:   (a) DODIG Memorandum of March 27, 1998

                 ENCLOSURE:   (1) Department of the Navy Response to Draft
                                  Audit Report


                      We have reviewed the findings and recommendations
                 forwarded by reference (a). Detailed comments are provided
                 in enclosure (1).
Changed               We concur with the report recommendation A.l. The
Recommendatio
                 Department of the Navy item managers do, and wili continue
A.l. to 1.
                 to, provide necessary information to support termination
                 decisions. However, i'fthere is disagreement regarding the
                 necessary inventory level, the Navy reserves the right to
                 continue procurement action based upon Department of the
                 Navy inveniory projections.




                                                          WILLIAM J. SCHAEFER"
                                                          Deputy Assistant Secretary
                                                          of the Navy
                                                          Planning, Programming, and
                                                          Resources




                 copy to:
                 CNO (NOBBMR)
                 CNO (N4Jl)
                 RDA (ABM)
                 NAVSUP (91E)
                 FM0 (31)




                                                30
                                        Department of the Navy Comments

                                                                          Final Report
                                                                           Reference




                DEPARTMSNT Of THE NAVY RESPONSE
                              TO
         DODIG DRAFT AUDIT REPORT OF MARCH 27, 1998
                              ON
  CONTRACT TERMINATIONS AT DEFENSE SUPPLY CENTER COLUMBUS
            AND DEE'ENSESUPPLY CENTER RICHMOND
                  (Project No. 7LD-3C?l)


Finding A: Excess Procurement Termination Process                         Finding A
Consumable Items Transferred from Military Departments:                   Header
"First, DSCC and DSCR reported that Navy and Air Force ICPs               Deleted
that had previously managed the items were unresponsive to
requests for information required to support termination
decisions. .. Second, the actual contract administration for
the on-order shipments remained a Military Department ICP
responsibility and DLA did not have authority over the
Military Department contracting officers to ensure contracts
for excess procurements managed at DLA were canceled.“

Recomman&tion  A. 1: We recommend that the Deputy Chief of                Changed
Naval Operation (Logistics) and the Commander, U.S. Air                   Recommendation
Force Materiel Command, emphasize that:                                   A.l. to 1.

  a. Item managers provide Defense Logistic Agency
information on contract terminations concerning consumable
items transferred to the Defense Logistic Agency for
management.

  b. Contracting officers execute timely contract
terminations when recommended by the Defense Logistics
Agency.

Depprrtmmt of the Uavy Position: Concur. Department of the
Navy item managers do, and will continue to, provide DLA
information necessary for making termination decisions.
However, the Military Services are generally weapon system
managers while DLA is a commodity manager. The DLA
inventory model is primarily demand based and does not
recognize factors necessary for determining weapon system
inventory projections such as scheduled requirements, weapon
system relationships, etc. Therefore, the DLA model is
inclined to recommend an inventory level less than the
Service model.  If there is disagreement regarding the
required inventory level, the Navy reserves the right to
continue procurement action based-upon Department of the
Navy inventory projections.




                                                  Enclosure (1)




                                   31
                   Department of the Air Force Comments
  Final   Report
   Reference



                                                 DEPARTMENT OF THE AIR FORCE
                                                 HELDWIRERS      UNITED STAT&S AIR FORCE




                       MEMOFSYDtSf       FOR ASSISTA.. INSPECTOR GDI;EUL FOR AUDl-TING
                                             OFFICE OF THE INSPECTOR GEE;ERu
                                             DEPARM       OF DEFENSE

                       FROM:    AFfILS

                       SUBJECT:    DoDIG DraftRqoq Comacr Terminarionsat Dcfensc Supply Center Columbus
                                   and DefenseSupply Centa Ri&mad, (Project 7LP! 0 11)

                               Thrs k in miy to your memorandumrequestingthe Air Force provide conunents on
                       subject report.

Changed                        Both HQ AFMC and HQ CSAF concur with the xt=ommcrtion A! rcfpding
Recontrnendatio        consumable assetstmsfaxd to the Defense Logistics Agay (LILA) This recommendation
A.l.   to 1.           states HQ AFMC qph&ze, to its @entory managers and cono~cting offkas, the need to
                       provide information on tomact tennhtions. and to execlltc b5nety conmct tezrnhations when
                       rccommczdcd by DLA.

                               Bkncss rules exist in DoD 414026-M wbith provides insvJEtions, for both the gaining
                       and losing organization personnel, on proper coordiition and timely execution of terminations.
                       HQ AFMC wX send ea& of the Air Logistics Centers a memorandum ha the Dictnr of
                       Logistics whkh rcanphuizes tie need to follow the mlcs k l h DOD 414026.M. The
                       mmrorandum VriUspecifically cite the requirement to respond to DLA in a timely maxmu on
                            ;
                       tamnation   decisions. The manotandum will be sen no later than 19 Jun 98.

                               Our point of contarxis ML John CaLhoq HQ USAF?ILSP, (703) 695-4895




                                                                                       A
                                                                                       D



                       cc:
                       HQ AFMCLGIA (T. Franz)
                       SAFlFMpS (D. Sapp)




                                                                    32
Defense Logistics Agency Comments


                                     DEFENSE       LOGISTICS    AGENCY
                                                HEAWUARTERS
                                   6725 JOliN J. KINGMAN ROAD, 5Ull-E 2533            .
                                       FT. BELVOIR. VIRGJNIA 220606221



N EPLY
  affw   m
                                                                                  WI8      m
             DDAI


             MEMORANDUM FOR ASSISTANT MSPECTOR GEWRAL                      FOR AUDITING,
                              DEPARTMENT OF DEFENSE


             SUBJECT:    Draft Report on Contract Terminations at Defense Supply Center and Defense
                         Supply Center Richmond, 7LD3011

             Enclosed xe our comm~lts to your request of 22 March 1998. Should you have any questions.
             please contact Anne11 U’iliiams, 767-6274.




             Ed




             CC:
             DLSC-LS
             DLSC-BO
                            .


                  Defense Logistics Agency Comments




                                Subjtcc ContractTermhations at Defense Supply center cohmlbus and Defense
                                        Suppiy Center Richond
Finding A                       Flndii A: DSCC and DSCR did not aggressively pursue potential terminstions of
Header Delete
                                contracts and purchase requests for materiel that exceeded rsquiruacnts. Of 251
                                notices of excess procxlrrnunt value at $179.3 million, approximately$36.4 million of
                                potentiallyexcess materiel on or&r bad not bun effcctivcly reviewed aad prmptly
                                pmcessedovera 1Oor II monthperiodattbeICPs.         Theconditionoccurredbeause
                                DLAdidnot~ti~~~mdconaolsthucnsuredthctimelymiewPnd
                                PrompIprocessing of terminationactions af DSCC and DSCR and the input of accurate
                                datainto internal temination models. Additionally, DLA did not establish uniform
                                dollar thEaholds to effectively manage consuabk items transferred from the
                                respective Military w,            and Navy and Air Force ICPs did not provide the
                                required information. Finally, DLA did not place sufficient management emphasis on
                                ConMct terminations. Tk pucbase of excess materiel resulted in lost opportunities to
                                reduce the DoD inventory of secohry items, as well as lost oppormnities to put funds
                                to batter use.

                                DL,A Comma&z Partially concur. While we concurred for the mosr part with the
                                thNstofthehpectorGeneralrecQmmen           dations. there arc some basic misperceptions
                                that invalidate portions of the findings. This is especiallytrue for the estimates of
                            potaltial wings,

                                This analysis. as did the prior IG report, identifies a flawed review process as the major
                                contributor to the signiticam difference between the number/dollar amount of candidate
                                overprocurements and the resulting, accu?l terminations. Our previous Materiel
Changed                         Managvlvnt Reviews, and our analysis of the 59 1G selected items. (See Recom-
Recommendation
A.2.e to 2.e.
                                mendation A.2.e.. Page 12) indicate that the difference in the figures stems from the
on Page 13                      large number of exuaneau candidates generated by the system. This situation results
                                from erroneous or missing requirements or due-in &la in the daWase. While the study
                                recognizes tbt ‘because of inacwatc and unreliable data in SAMMS, the [termination]
                                model provided excess procurrmcm dam that were of questionable reliabiiity for
                                making defision.5 to terminate procurrments of excess materiel” (Page 7, fhc report
                                does not place tbc same em@asis on &is as a root problemas we do. Having admitted
                                the data is iuxxura!c. tbs IG utilizesit to compute questionablebut damaging dollar
                                estimaks of potential savings througtlout the report.

                                Because of this invalid or missing information, a manag&y-exception process to ferret
                                out overpnxvremam becomw bogged down in a “data scrub” effort. This is most
                                evident in the area of Consumabk Item Transfer (CIT) candidates. which comprised a
                                disproportionately high segment of the items analyxed. Because we have been
                                unsuazisful in accurately transhirtg all due-ihequhnmts      dala mechanically. both
                                the DLA Gaining and the MKSVC Losii Item Manager must resort to labor intensive
Changed
                                manual work-arounds to compnsue. (See Recormr~~dahon A.2.c.. Page 12)
Recommendatior
A.2.c.  to 2.~.




                                                                         34
                                                 Defense Logistics Agency Comments

                                                                                      Final Report
                                                                                       Reference




Our reviews did 001 subsrantitc widespread errors in management judgum! implied by
lkrcpon.   More common WHIZInvemory Manqer (rM> hilures to input valid
qkanmts      data Ihal would have offset tk due-in quanhry and precluded = item
tram beiZlgJ CUididJtC for OvcrpnxurrmCn    tintkfimp&cc.     Wexe&isasiBdicative
of the Deedfor rdditional training in some itstmat, or the result of the IMs ‘aming
oomm”locopewithilm8sedwork)opds,inothels.              %mualFY9oMdFY97,rhe
oumbcrofitcmswtmarvgeincrrrscdby33%~etbtend~gthrttbcSupply
&nurs&ecusedby25%.

l7.u IG mporf did cmrobumc    our previous Marah Muugenxcot Review fiodisgs that
 gru~r discipline ww otedtd in Mining ast0mer rcquirrmmu projections. We ue
cominualiy working with the Military Services to improve tk accuracy of the DOD
 Spccirl ProgramRquiranmts (SPR) aprbiliry. (See response to Rccormmdation            langed
 A.2.b.) When SPRs arc nor the approprie v&icle. we have stmud the oeed 10            ?commendation
obtain whim vice solely telephonic requirements from tk wmner.      We have           .2.b. to 2.b.
empbarizrdthcnedroemcrthedrtniochcsynanmd~iu~u,aEnve
mxuratc rutormted decision-mrking We recognize the more formal, disciplined
qpmchesleSen,bul&nottomlly&nillate,ulev0l8ciIi(yinnquirrwms
projections. We have t&n tku masures to prcchrde invesmeor iu imppliable
invaxtory, while remaining focused on our primxy mission to suppcm the waxfighter.

?Imugb iocmsed mamganenf mph&s 8nd oversight, we ue &miming poaminl
causes of overp mcuremmt. Similuly , we m t8king wxerted steps to CurTectpolicy
ad proadurti voids that derna from out @aI          oyyp~o~ucmcm idmtifiution and
contract termination process. This includes a major effon to iacmse the&I@tyof
our &abase. We mz confideof these 8aions will remove my doubts, ml or
perceived, that DL.4 does not havem cfkctivt programfor respr&g in a more
timely mmner lo pomtirl ovcrpronvcmenlrinrrtiws.

htarvlMan8gmeat~Wab#rs:hniUyCha1r;wehs5s                            is &mdy
xcponedintkDLAAnaulSutnaartofAmmnce.




                                       35
                  Defense Logistics Agency Comments

 Final Report
  Reference




 Finding   B                Finding B: DLA tqotted a management coat101weakness on untimely contract
 Deleted                    terminations at whohale inventory control points that had gone uncorrected for more
                            than4ye.m. ThisconditionoccumdbecausethcDLA              ~tbadnottaken
                            prompt action to issue joint guidance on the timely processing of excess procuremcats
                            and had not made aggressive management     of excess pmauemen ts a priority for DLA.
                            In addition, DLA rnauagemmthad not issued guidance impkmating DoD lnstntction
                            5010.40. “Manag-t        Control Program Roceduru.’ August 28,1996. As a result.
                            DLA continued to make procurrmcnts that were excess to DoD oeeds.

                            DLA Cmameuts: Concur. DLA baa greatly increased the level of management
                            visibility to ensure this deficiency is corrected in FY 98.

                            Intea-nal v         Control Weakness: Concur; weakness is already reported in
                            the DLA Annual Sta-    of Assurance.


                            RECOMMENDATIONS:

Changed                     A. 1. DOD IG recotnmenclsthatthe Deputy Chief of Naval OperationsO&stics)          and
Recommendat ior             the Commander, U.S. Air Force Materiel Command, emphasize that:
A-1. to 1.
                                   a. Item managers provide DLA information on contract terminations
                                      concerning consumable items mnsfemd to DLA for managrment.

                                   b. Contracting offken execute timely contract terminations when
                                      recommended by DLA.

Changed                     DLA Commentsz Concur. We see this recommendation as related IO
Recommendatior              Rtcommcndation A.2.c. below. The resulting dialog will compensate for the IGs
A.2.c.  to 2.~.
                            failure to d.iscuss the impact of revised thresholds on the MILSVC end of the pipeline
                            prior to their recommendation.

                            Disposition: NIA

Changed                     A.2. DOD IG recommcn dsthattheDinuor,          DLA:
Recommendatior
A.2. to 2.                         a. Develop pro&ures and controls to ensure that inventory control points
                                      perform timely review and trackingof terminations actions at the item
                                      rmnager and ~tracting offkr levei .

                            DLA Commest!s: Concur. This is addtessed in our current miiesto~s for closing the
                            existing materiel weakness in thii area.

                            Disposition: Action is ongoing. ECD: August 1998




                                                                      36
                                                   Defense Logistics Agency Comments




           b. Wkn appropriate,require that a czustotncr-forrcosted
                                                                 rc@cmcnt be
              cubtittcd as a SpcciaIProgramRequirementin keeping with DOD
              Regulation 4140.1-R, I)oD Matctid Mamgemmt Regulation.”
              lanuary 25.1993.

DLA Comments: cobau.        Policy ktter amt to Defa~     Supply Centers. &ted
April 17, 1998.

D&&ion:       Action is considered complete.


        c. Make the dollar threshold for reviewing cunsumablc item transfers
           consista~~ with the thtcshold established by inventory control points for
           twiewing all other categories of prauratmt5.

DLA Comments: F’attialiy concur

The current policy was established in coordination with the DLA Dcfats~ Supply
Ccmers and the Military Services. A ccm@aa tumination tequest by DLA generates
the following actions by the Military Services:

       A. Rapitemmts Validation: Detetmine ifthere IDAvalid requirementsfor the
       item that did not pass to DLA and therefore were not considered in DLA’s .
       conpact termination recommendation.

       B. Gnuact Tmninahon: Request /negotiate contaacttermination witb the
       contractor.

These two functions
                  art labor intensive. Pcrsom~elresources to perform these functions
must be diverted from other valid missions. The current rrvicw thrcaholdswae chosen
in concurrencewith the MILSVCsas a balance hctwun potential savings and associated
workload.

Since the currentpolicy was established, downsizing has reducedpcmonnel resourcesat
both DLA and the MILSVCs. DLA will assess the workload am&ted with the revised
~~vicw tbesb~lds. Additionally, DLA will request MILSVC mtmmcnc ewiththe
recommendedchange. Upon concwra~cc by the MILSVCs, d if fcaJble within crrnrnt
resources, DW will implcmu~~the revised contzact tc&nation review thrcsbolds.

Dk@tion:      Action is ongoing. ECD: July 31,1998




                                        37
               Defense LogisticsAgency Comments

Final Report
 Reference




                         Np&timz           Action is ongoing. ECD: August 1998


                                 e. ~ifcxccssproavmacmsthouldkoc~~onachofrhcS9
                         items idaM      rMog tbc &it thxt were not terminatedby Defakse Supply Center
                         Columbus end Defense Supply CenterRichmond.

Revised                  DLA Cmnn&st PartiallyDOWIT.We quest thix rccammcndltion be mixed. We
Page 13                  hveinitttcddrnvicwoftbe~iittms1Ddeccrmineiftbtitrmrwcrr~mrceXccts
                         andpmcessalin wmrdmce within p&y and pmcedunl guidelines. We believe this
                         wasywiataS.      lkamentwoAsetpefpetutestkbasictnkonc@anof
                         ‘potuuixl” wqmmmnat          rddres&iIlolu commummFhdingA.        Aswtiuen,rbe
                         en              implies the item ware overprocuredmd asksus 10 “[d)*crminc if
                         excess ptumamts     shouldbe terminated..”

                         Dispo&im          Action is ongoing. ECD: June 1998


Finding   B              B. DOD 1G rummmds               that the Director, DLA:
Deleted
                                   1. Issw joii guidurt for wholcsxle inventory comol points on contmct
                                      tenaxtiom.

                         DLAcanmentr:             Cmatr. Thisis addmsedinourcurmtmilcmncsforchingtk
                         uiotiDprwaielWt&tSSinthiSUer.



                         Dirporwaa: A&on is ongoing. ECD: June 1998


Deleted                            2. CkKctthereaAng~                        control &kiencyofuntimely   conma
                                      tamillxtim.

                         DLAcaammts Concur.
                         D&pod&n:          Aaion is qoin&        ECD: Aqust 1998
                                                Defense Logistics Agency Comments

                                                                                    Final Report
                                                                                     Reference




       3. issue guidance im@mdq  DoD Immaion 5010.40, ‘hhmqamt                      Deleted
          colmol Prognm Rcmdums,’ hgllst 28.19%.

DIA -:             WC agrmwith     theDoDIG that ‘fmmll” DOD Immhon 5010.40.
‘Management control Pmgram Rocsdurrs,’ has not betn,provi&d to DIA
amponam.       We anticipate that this guidancewilI k -ted     to DtA’s fmxional
entities by June 30.1998.

   It should be noted that ‘informal guidance” which is in amsooancc with these
procedures has ban provided via agency-wide conferences. worksbops, and similar
folum.

Dispodhn: Actionis ongoing.ECD: June 30,1998

Action om!ers: Robert Thciss. Diam Dailey, and John Alphin, DLSC-IS
                Pierson Ksmp, FO
Review/Appmval:W.B. Bcrgmann for S.R. Morgan, RADM. SC, USNR. Acting
                Executive Dircuor, L43gisticshianagemcnt @Lx-L)
                May 8, 1998
coordInatIon:  Anne11W. Williams,DDAI

DLA APPROVAL:




                         I,
                              Riai Admiral. SC. USN
                              Deputy Direct01
                                  rlrll 1111




                                      39
Audit Team Members

This report was produced by the Readiness and Logistics Support Directorate,
Office of the Assistant Inspector General for Auditing, DOD.

Shelton R. Young
Raymond D. Kidd
Tilghman A. Schraden
Kathryn L. Palmer
Carolyn R. Davis
Joseph A. Powell
Raymond L. Hopkins
Kayode 0. Bamgbade
Stuart W. Josephs
Anita M. Manuel
